HHS/OIG-Audit--"Review of Medicare Payments Made to PacifiCare of Texas
Incorporated, a Health Maintenance Organization in San Antonio, Texas, (A-06-94-00028)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments Made to PacifiCare of Texas Incorporated, a
Health Maintenance Organization in San Antonio, Texas," (A-06-94-00028)
June 8, 1995
Complete
Text of Report is available in PDF format (736 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit is one of a series of reviews the Office of Inspector General is conducting
under our "Strategic Plan for the Oversight of Managed Care". The final
report points out that PacifiCare (a risk-based health maintenance organization)
received overpayments totaling $617,577 on behalf of Medicare beneficiaries who
were erroneously classified as; (1) eligible for Medicaid (dual eligible), (2)
an end-stage renal disease (ESRD) beneficiary, or who no longer resided in PacifiCare's
service area (out-of-area). In addition to a financial adjustment, we recommended
actions PacifiCare can take to preclude erroneous classification of Medicare beneficiaries
in the above categories. Officials of PacifiCare concurred in all our findings
and recommendations.